IN THE SUPREME COURT OF THE UNITED STATES
No. 21-26
BRITTANY BILLETTS, ET AL.,
PETITIONERS,
V.
MENTOR WORLDWIDE LLC,
RESPONDENT.
CERTIFICATE OF SERVICE
I hereby certify that on August 26, 2021, I electronically filed Mentor’s
Second Motion to Extend Time to Respond to Petition for Writ of Certiorari with the
Clerk of the Court for the United States Supreme Court. In compliance with the
Court’s July 19, 2021, Order, a paper copy was not filed with the Clerk. I further
certify that, as required by S. Ct. R. 29.3, I served one copy of the foregoing via
email and will serve a paper copy via Federal Express to arrive within three days
from today upon counsel for Petitioners:
Anthony Anderson Benton Dogali
Dogali Law Group, P.A.
19321 U.S. Highway 19 N., Suite 307
Clearwater, FL 33764
813-289-0700
adogali@dogalilaw.com
I further certify that all parties required to be served have been served.
/s/Dustin B. Rawlin
Dustin B. Rawlin
Counsel of Record for Respondent
Mentor Worldwide LLC

5268048.1

